CERTIFICATE OF SERVICE
NO. 20-1254
Padma Rao
Petitioner,
v.
Midland Trust Company
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
MIDLAND TRUST COMPANY BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the
same by Fedex 2-Day, prepaid for delivery to the following address.
Michael Anthony Steigmann
Law Office of Michael Steigmann
180 N. LaSalle St., #3700
Chicago, IL 60601
(312) 833-5945
michael@steigmann.com
Counsel for Padma Rao

Lucas DeDeus

April 8, 2021
SCP Tracking: Singler-200 West Monroe St., Suite 750-Cover Orange

